<html>
<title> - A REVIEW OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION'S FISCAL YEAR 2020 BUDGET REQUEST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  A REVIEW OF THE NATIONAL OCEANIC AND
                      ATMOSPHERIC ADMINISTRATION'S
                    FISCAL YEAR 2020 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2019

                               __________

                           Serial No. 116-12

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov       
       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-093PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                      Subcommittee on Environment

                HON. LIZZIE FLETCHER, Texas, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
CONOR LAMB, Pennsylvania                 Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JIM BAIRD, Indiana
BEN McADAMS, Utah                    JENNIFFER GONZALEZ-COLON, Puerto 
DON BEYER, Virginia                      Rico


                         C  O  N  T  E  N  T  S

                             April 30, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written statement............................................    11

Statement by Representative Roger Marshall, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    13
    Written statement............................................    14

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written statement............................................    18

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    20
    Written statement............................................    21

                                Witness:

The Honorable Neil Jacobs, Ph.D., Assistant Secretary of Commerce 
  for Environmental Observation and Prediction, performing the 
  duties of Under Secretary of Commerce for Oceans and 
  Atmosphere, NOAA
    Oral statement...............................................    23
    Written statement............................................    26

Discussion.......................................................    31

             Appendix I: Answers to Post-Hearing Questions

The Honorable Neil Jacobs, Ph.D., Assistant Secretary of Commerce 
  for Environmental Observation and Prediction, performing the 
  duties of Under Secretary of Commerce for Oceans and 
  Atmosphere, NOAA...............................................    44

 
                  A REVIEW OF THE NATIONAL OCEANIC AND
                  ATMOSPHERIC ADMINISTRATION'S FISCAL
                        YEAR 2020 BUDGET REQUEST

                              ----------                              


                        TUESDAY, APRIL 30, 2019

                  House of Representatives,
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lizzie 
Fletcher [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fletcher. This hearing will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    Good morning. Welcome to today's hearing entitled, ``A 
Review of the National Oceanic and Atmospheric Administration's 
Fiscal Year 2020 Budget Request.'' I would like to welcome Dr. 
Neil Jacobs to the Committee and thank him for coming to 
testify today on the President's budget request for Fiscal Year 
2020 for the National Oceanic and Atmospheric Administration, 
NOAA.
    NOAA's mission is to ``understand and predict changes in 
climate, weather, oceans, and coasts, to share that knowledge 
and information with others, and to conserve and manage coastal 
and marine ecosystems and resources.'' NOAA strives to meet 
this mission through its six line offices that collect 
environmental observations through satellites and specialized 
marine vessels and aircraft; analyze, store, and disseminate 
this data; provide weather forecasts and climate predictions; 
protect our coastal and marine resources; and conduct cutting-
edge scientific research.
    Many Americans utilize NOAA's publicly available data on a 
daily basis. That is why NOAA's budget request for Fiscal Year 
2020 of $4.5 billion, an almost 18 percent decrease from the 
$5.4 billion provided in the Fiscal Year 2019 enacted budget, 
is deeply alarming. Every line office within NOAA received net 
decreases to their top-line budgets, with significant cuts to 
both NOAA research programs and extramural research grants.
    Many of our constituents are already dealing with impacts 
of climate change, such as sea-level rise, heavy rainfall, and 
rising temperatures in both our oceans and atmosphere. The 
National Climate Assessment, a congressionally mandated report 
published by the U.S. Global Change Research Program, describes 
these and other risks and impacts arising from climate change 
across the United States, in addition to examining the latest 
climate science. The U.S. Global Change Research Program is 
supported by funding contributions from the Federal member 
agencies.
    The increased frequency of severe weather events that are 
impacting every part of the country is also described in the 
National Climate Assessment. We must continue to support 
efforts to enhance both our weather forecasting and climate 
prediction capabilities, which are based on long-term records 
of environmental observation. Across-the-board funding cuts 
endanger NOAA's ability to continue to collect, analyze, store, 
and disseminate this critical data. In order to sustain this 
data stream, we must provide robust and consistent funding for 
data collected by in-situ and remote-sensing platforms.
    The U.S. has been the leader in weather forecasting and 
climate prediction not only because of our cutting-edge weather 
models, but also our uninterrupted record of environmental 
observations and measurements that span decades, which feed our 
models and help provide better, more accurate forecasts. 
Additionally, NOAA has seen large improvements in forecasts by 
focusing on the transition of weather research conducted at 
line offices such as the Office for Oceanic and Atmospheric 
Research, to operations at the National Weather Service.
    The draconian cuts of over 40 percent to the Office of 
Oceanic and Atmospheric Research would include the complete 
elimination of NOAA's portion of funding for the National 
Climate Assessment. These funding cuts would also significantly 
reduce both intramural and extramural research, and slow down 
the critical research to operations transition.
    Stakeholders in decisionmaking roles at State and local 
levels, including emergency managers, utilize many of the 
products and services developed across NOAA. When Hurricane 
Harvey hit my district in 2017, the National Hurricane Center 
provided direct support to on-the-ground emergency managers and 
to other decisionmakers in Houston and across Texas and 
Louisiana.
    The National Weather Service also issued its first-ever 
storm surge watches and warnings during Harvey. These storm 
surge watches and warnings had been under development over the 
past several years. It is important to note that there were no 
storm-surge related deaths from Hurricane Harvey, a category 4 
hurricane. The proposed cuts in this budget to the National 
Weather Service could negatively impact these existing 
successful interactions with local stakeholders.
    The benefits of a well-funded NOAA are clear, which is why 
I am concerned that the widespread cuts proposed in this budget 
will impact NOAA's ability to meet its mission. Consistent and 
reliable funding is required to make significant improvements 
to our weather and climate models, which can be decades in the 
making, and ensure continuous collection of environmental 
observations.
    I'm glad to know that Congress will have the final say on 
the budgets of Federal agencies so that we can ensure that NOAA 
can continue to meet its critical mission by providing robust 
funding to an agency that touches the lives of every American 
on a daily basis. I hope today's discussion will shed some 
light on how this budget will help support NOAA's long-term 
priorities.
    I look forward to a productive discussion with Dr. Jacobs 
to better understand the Administration's justification for its 
proposed Fiscal Year 2020 budget for NOAA. Thank you.
    [The prepared statement of Chairwoman Fletcher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. The Chair now recognizes Ranking 
Member Marshall for an opening statement.
    Mr. Marshall. Thank you, Chairwoman Fletcher, for holding 
this hearing today. It is important that we, as Members of 
Congress, remember it's the responsibility of Congress to vet 
budget requests, hear from the relevant agency leaders, and 
make the final decision on funding levels.
    I also want to add my thanks to Dr. Neil Jacobs for being 
here today and for his continued service. Coming from the 
private sector, Dr. Jacobs brings a unique and valuable 
perspective to NOAA. On top of that, he's graciously taken on 
the responsibility of being the acting head of NOAA, performing 
the duties of Under Secretary of Commerce for Oceans and 
Atmosphere.
    NOAA has a wide-ranging mission from fisheries management 
to atmospheric observation. Their products and services have a 
tremendous economic impact and affect more than one-third of 
America's gross domestic product.
    As we've heard, the President's budget request for NOAA is 
$5.4 billion, an 18 percent decrease from last year's enacted 
funding. Like all other agencies and departments, NOAA was 
forced to make tough decisions, but the budget request reflects 
an attempt to be more efficient in its delivery of services in 
a constrained budgetary environment.
    One area I'm pleased to see prioritized is NOAA's research 
in improving forecasting. America's leadership has slipped in 
severe weather forecasting, and European weather models 
routinely predict America's weather better than we can. 
Critical weather data is a lifeline for many of my constituents 
that make their living in the agriculture industry.
    This spring, NOAA's National Severe Storms Laboratory will 
join with several partners in the Environmental Profiling and 
Initiation of Convection, or EPIC, field project. I'm 
particularly interested to hear how this project, authorized by 
this Committee last Congress and supported in the President's 
budget proposal, could have an impact on agriculture and 
production.
    I do have some modest concerns about the growth of NOAA's 
satellite division, the National Environmental Satellite Data 
Information Services, or NESDIS. At $1.4 billion, or roughly 33 
percent of NOAA's total R&D budget, it's the largest and 
highest-funded area. Not too long ago, in 2008, the satellite 
budget came in at under $1 billion. Let me say, I do think this 
increase is warranted, as NESDIS provides critical data and 
services, but we must ensure the office is equipped to handle 
this booming growth and use all resources in the most efficient 
way.
    NOAA is a mission-oriented agency, and this Committee 
supports these core priorities. We face fiscal constraints that 
force us to make difficult choices about our science and 
technology services. I believe that this Committee, regardless 
of a political affiliation, should always support NOAA's desire 
to emphasize protecting life and property.
    Thank you, and I yield back.
    [The prepared statement of Mr. Marshall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Mr. Marshall.
    The Chair now recognizes the Chairwoman of the full 
Committee, Ms. Johnson, for 5 minutes.
    Chairwoman Johnson. Thank you very much, Chair Fletcher, 
and good morning, everyone. I'd like also to welcome Dr. Jacobs 
and thank him for being here today to testify on NOAA's Fiscal 
Year 2020 budget request.
    For decades, NOAA's research and services have played a 
critical role in protecting American lives through accurate 
weather forecasting and climate prediction, improving our 
environmental knowledge and stewardship, and supporting a 
thriving United States economy. It seems obvious to say that 
the NOAA budget should reflect its mission and ensure NOAA can 
fulfill its obligations to the American people.
    NOAA's mission is ``to understand and predict changes in 
climate, weather, oceans, and coasts; to share that knowledge 
and information with others; and to conserve and manage coastal 
and marine ecosystems and resources.'' Yet NOAA's budget 
request for Fiscal Year 2020 is $1 billion lower than its 
current budget, which is an 18 percent reduction. These cuts 
are felt across nearly every program and activity across the 
agency. This budget would also terminate approximately 547 
civilian positions. How will NOAA deliver on its mission with 
these drastic cuts?
    We don't have time to go into every detail, so I'd like to 
use part of my time to highlight some of the greatest concerns. 
The first is with NOAA's delivery on climate research. Climate 
change is real and happening right now. Rising temperatures and 
sea levels, and changes in ocean chemistry and ecosystems, pose 
a real threat to public health. These climate impacts also 
affect the management of our fisheries and coasts and the 
overall resiliency of our communities to extreme weather 
events. NOAA's activities, tools, and services are central to 
our ability to understand, to adapt to, and mitigate the 
impacts of a changing climate.
    As climate and severe weather events increase in frequency 
and intensity, so do the costs to human lives and the economy. 
In 2017, a record-breaking year, the U.S. had 16 weather and 
climate events that each cost at least $1 billion and a total 
cost of $300 billion and 362 fatalities. This budget proposes 
to cut almost $500 million from its climate laboratories and 
cooperatives--institutes and nearly dismantles NOAA's Climate 
Program Office. How will this impact the ability of communities 
across the United States to prepare for and respond to climate 
change and severe weather?
    It also proposes to eliminate the agency's funding for the 
National Climate Assessments. These assessments represent years 
of work and extensive review. In our first full Committee 
hearing on the State of Climate Science, we heard from experts 
who contributed to the Fourth National Climate Assessment. What 
does it mean when the leading Federal agency studying the 
climate drops out of the main Federal report on climate change? 
I look forward to hearing from Dr. Jacobs on how NOAA intends 
to continue working on this congressionally mandated report 
without any dedicated funding for it.
    I recognize that Dr. Jacobs was given a tough budget 
proposal from the Administration and had to make some difficult 
decisions. But we need to think about the lives at risk, and 
the potential economic and environmental harm of such a reduced 
budget.
    I thank you, Madam Chair, and I yield back.
    [The prepared statement of Chairwoman Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Chairwoman Johnson.
    The Chair now recognizes the Ranking Member of the full 
Committee, Mr. Lucas, for an opening statement.
    Mr. Lucas. Thank you, Chairwoman Fletcher, for holding this 
hearing on NOAA's FY2020 budget request. NOAA has a broad array 
of responsibilities, ranging from weather forecasting and 
climate prediction to ocean and atmospheric observation. NOAA's 
work benefits America's farmers, ranchers, coastal communities, 
disaster personnel, land-use planners, weather forecasters, and 
Americans across the country. NOAA's research and publicly 
available data has immense economic impact.
    The President's budget proposal for NOAA reflects difficult 
decisions made across the Federal Government. I appreciate the 
effort of the Administration to submit a proposal that 
emphasizes NOAA's core priorities, principally, protecting life 
and property. Beyond these basic functions, NOAA is 
prioritizing other areas within its jurisdiction, including 
improving agency efficiencies for satellite management, 
maximizing the economic contributions of our coastal and marine 
resources, and reducing the impacts of extreme weather 
incidents.
    We have heard concerns about some of the proposed cuts 
included in this request. I would remind my colleagues that the 
President's budget request is just a starting point for our 
discussions, and we're here today to learn more about how to 
best prioritize NOAA's resources. It's also important to note 
that in recent years Congress has decided to fund NOAA at a 
higher level than the President's budget request.
    Many of our constituents are interested in NOAA's work, 
particularly the National Weather Service. Oklahoma is home to 
cutting-edge research on weather forecasting and climate 
prediction. Last month, I had the opportunity to tour the 
University of Oklahoma and Oklahoma State to learn about the 
research being conducted in partnership with NOAA.
    I also toured the National Weather Center in Oklahoma and 
heard from many dedicated researchers working to improve our 
weather forecasting abilities. There was one unmistakable 
conclusion from this trip: The work done by the National 
Weather Service is very important and must be a focus of this 
Committee's work in this Congress.
    As a rancher--and, in all fairness, my wife prefers to 
refer to me as a farmer; she's the rancher--I can tell you that 
accurate weather prediction is critical for our Nation's 
agricultural producers. So I have a keen interest in the 
Committee's work to help improve weather forecasting. During 
the 115th Congress, this Committee passed my Weather Research 
and Forecasting Innovation Act of 2017, which was subsequently 
passed into law and is being implemented by NOAA. I look 
forward to hearing about NOAA's continued implementation 
efforts for this Act.
    I want to thank Dr. Jacobs for appearing before the 
Subcommittee today. His enthusiasm for his work is apparent, 
and he brings a unique perspective to NOAA's leadership thanks 
to his extensive experience in the private sector.
    Madam Chairwoman, I yield back the balance of my time.
    [The prepared statement of Mr. Lucas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Mr. Lucas.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I would like to introduce our witness. Dr. 
Neil Jacobs was confirmed as the Assistant Secretary of 
Commerce for Environmental Observation and Prediction in 
February 2018. He's been performing the duties of Under 
Secretary of Commerce for Oceans and Atmosphere since February 
2019.
    Prior to joining NOAA, Dr. Jacobs was the Chief Atmospheric 
Scientist at Panasonic Avionics Corporation. He was also 
previously the Chair of the American Meteorological Society's 
Forecast Improvement Group and served on the World 
Meteorological Organization's aircraft-based observing team.
    Dr. Jacobs has a bachelor's degree in mathematics and 
physics from the University of South Carolina and a master's 
and doctoral degree in atmospheric science from North Carolina 
State University.
    Dr. Jacobs, you will have 5 minutes for your spoken 
testimony. Your written testimony will be included in the 
record for the hearing. When you've completed your spoken 
testimony, we will begin with questions. Each Member will have 
5 minutes to question you.
    Dr. Jacobs, you may begin your testimony.

                  TESTIMONY OF DR. NEIL JACOBS,

              ASSISTANT SECRETARY OF COMMERCE FOR

           ENVIRONMENTAL OBSERVATION AND PREDICTION,

            PERFORMING THE DUTIES OF UNDER SECRETARY

          OF COMMERCE FOR OCEANS AND ATMOSPHERE, NOAA

    Dr. Jacobs. Chairwoman Fletcher, Ranking Member, Members of 
the Committee, thank you for the opportunity to testify today.
    The President's FY2020 budget request for NOAA is $111 
million above the FY2019 request and emphasizes core programs 
while making targeted investments, which we believe will 
produce a substantial return for the American taxpayer.
    Accelerating advancements in global modeling program is a 
top priority. While there have been many achievements in 2018, 
problems exist with the current structure of weather research 
to operations. The internal and external strategy is fractured, 
the computing procurement process is cumbersome, and the 
funding process disincentives collaboration. The FY2020 request 
addresses many of these challenges through the creation of the 
Earth Prediction Innovation Center, or EPIC.
    Based on the Weather Research and Forecast Innovation Act 
of 2017 and recently authorized in the National Integrated 
Drought Information System (NIDIS) Reauthorization Act of 2018, 
EPIC will serve as a hub for building and maintaining a true 
community model. EPIC's innovative structure will link 
scientists and software engineers in academia, private 
industry, and partner agencies with research, development, and 
operational activities inside of NOAA. EPIC will significantly 
enhance our ability to access external expertise, 
reestablishing preeminence of U.S. forecast model skill, and 
improving our ability to provide accurate watches and warnings.
    The NOAA Satellite Observing System Architecture study, or 
NSOSA, which was completed in 2017, analyzed various approaches 
to better meet mission requirements of greater flexibility, 
responsiveness, and incorporate and involve--evolving 
technologies. Congress recognized the importance of NSOSA, 
codifying the program in the NIDIS Reauthorization Act of 2018. 
The budget initiates NSOSA implementation with investments to 
evaluate innovative space-based solutions and partnerships, 
including $12.3 million for joint venture partnerships and 
hosted payloads on geostationary and polar orbits. It also 
continues the importance of the Commercial Weather Data Pilot 
program, as well as $5 million for the option to purchase data 
after successful testing.
    This budget makes necessary investments for strong coastal 
communities and economies and includes an increase in $2.3 
million for regional fishery management councils to analyze and 
remove outdated or ineffective regulations. To help level the 
playing field for U.S. commercial fishermen in the global 
seafood marketplace, an additional $1.6 million is requested to 
enforce the Seafood Import Monitoring Program and prevent the 
importation of seafood caught using illegal fishing practices.
    Finally, the budget includes an increase of $3.6 million to 
support aquaculture by assisting industry with regulatory 
compliance, conducted research, and insured American-farmed 
fish are safe and sustainable.
    Executive Order 13840 established a National Ocean Policy 
focused on providing tools to coastal communities to 
substantially manage their offshore waters. The budget includes 
an additional $4 million for ocean data platforms, building on 
innovative tools developed by NOAA to improve siting of 
offshore activities.
    NOAA has made great strides in the past 2 years to reduce 
the amount of time needed for environmental review. The time to 
complete formal and informal Endangered Species Act 
consultations was reduced by over 22 and 65 percent, 
respectively. Incidental harassment authorizations under the 
Marine Mammal Protection Act have been reduced by 25 percent. 
The FY2020 budget builds on this success by providing an 
additional $3 million to further reduce the timeline for 
consultations and permits.
    Other sections in the Blue Economy that this budget 
addresses include marine transportation through additional 
precision navigation data, efforts to reduce marine debris, 
accelerating economic benefits of the new and expanded marine 
sanctuaries, and reducing the backlog of natural resource 
damage assessment cases.
    Finally, this budget includes $5 million for the National 
Oceanographic Partnership Program. We intend to use these funds 
to leverage investments from other Federal agencies, private 
industry, philanthropic organizations that have shared interest 
in advancing ocean research. These funds can be used for a 
variety of partnerships ranging from ocean exploration to new 
technology to detect and protect marine mammals.
    NOAA's services touch every American every day. I believe 
this budget request meets NOAA's core mission of protecting 
lives and property, while also positioning the agency to be 
more effective in moving forward.
    Thank you again for the opportunity to testify today. I 
would be pleased to answer any questions you may have.
    [The prepared statement of Dr. Jacobs follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Dr. Jacobs.
    At this point, we will begin our first round of questions, 
and I will recognize myself for 5 minutes.
    I have two general categories of questions, so I'm going to 
try to move through them fairly quickly, Dr. Jacobs. The first 
is on the impact of the budget request to NOAA's mission and 
global leadership.
    Despite NOAA's stated priorities of reducing the impacts of 
extreme weather and water events, maximizing the economic 
contributions of ocean and coastal resources, and advancing 
space innovation, the President's budget for Fiscal Year 2020 
requests a total of $4.5 billion for NOAA, which is 18 percent 
below the Fiscal Year 2019 enacted budget, as we heard 
previously.
    A few questions if you could touch on these, how does NOAA 
intend to meet its mission and priorities with reduced funding 
for every single line office of the agency? How can the U.S. 
remain a global leader in weather forecasting, climate 
prediction, and oceanic and atmospheric research given these 
significant cuts across the board at NOAA? And how will NOAA 
continue to support robust private-sector and academic research 
in the ocean and atmospheric sciences with reduced funding for 
extramural grants throughout the agency?
    Dr. Jacobs. Well, the FY2020 request, just going across the 
board, the climate is $88 million, oceans are $98 million, and 
weather is $110 million. I would like to say that a lot of the 
research we're doing on the weather forecasting aspect, we're 
transitioning to a unified forecasting system, which is also--
the weather model is going to double as a dynamic core for our 
climate model. So while we're funding the research for the 
weather model, that's actually going to benefit the dynamic 
climate modeling system.
    On the weather forecasting side, currently the U.S. is not 
considered the leader. We're actually lagging the European 
Center, and that was the basis for the Earth Prediction 
Innovation Center, which actually sort of answers your last 
question. So the idea in this center would be to harness 
external development through universities and private industry 
and give developers for the model code a cloud-based sandbox so 
to speak to do collaborative model development, so it would 
harness a lot of what's in private industry as well.
    And then on the ocean side, we have the National 
Oceanographic Partnership Program, which would also leverage 
private investment to help further some of our research.
    Chairwoman Fletcher. Thank you. And switching gears, the 
other topic that I want to cover with you with the remainder of 
my time is reductions in funding for Hurricane Forecast 
Improvement Project. This Fiscal Year 2020 budget request would 
slow the development of the Next-Generation Global Prediction 
System and Hurricane Forecast Improvement Project by reducing 
research grants for the collaborative research activities and 
NOAA's testbeds. The budget request notes that this $2.1 
million reduction may be offset by the additional funding for 
the Earth Prediction Innovation Center, but it is not clear 
whether that will be the case.
    Hurricane Harvey inflicted $125 billion of damage in 
Houston and southeast Texas, and hurricanes are predicted to 
increase in frequency and intensity with the changing climate. 
Timely and accurate hurricane forecasting will be essential to 
protecting life and property in the face of these oncoming 
disasters.
    Dr. Jacobs, how can NOAA ensure that our communities are 
equipped with the best possible hurricane forecasts given this 
funding cut to the Hurricane Forecast Improvement Project and 
the rising threats from more intense and frequent storms?
    Dr. Jacobs. So on the modeling side--so I'll break it in--I 
break it down into three sections to improve the hurricane 
forecasting. We have model code development, which we're doing 
through EPIC now. That includes the Finite Volume Cubed Sphere 
(FV3), which is our global model that we use for hurricane 
track. It also is ultimately going to be the model that we 
transition from the WRF (Weather and Research Forecast) Model, 
which is our hurricane intensity model, to the FV3.
    I'd also like to mention the storm surge forecasting. This 
is something that's really critical. A lot of people don't 
realize when they think of hurricanes, they think about high 
winds, but it's actually the water that is responsible for the 
deaths of most individuals. We have a very sophisticated storm 
surge forecasting model that we're working on. That's actually 
funded through the National Weather Service. Even though it 
would be research, it's funded and it's used operationally in 
issuing watches and warnings.
    The next step--you know, so going back to the observation 
side, we are acquiring more ship observations. We're outfitting 
an acquisition of a second backup capability with the G4 
aircraft. We'll have both of our P3 Hurricane Hunters in 
operation this year.
    The thing that I'd really like to highlight is the National 
Water Model. So one of the things that we haven't done yet but 
we're working on and we've--we saw this in Harvey and we'll 
see--we saw it in Florence and we'll likely see it again is the 
integration between the inland flooding and the storm surge. So 
one of the things a lot of individuals don't realize is, 
particularly in the case of Florence, when these storms produce 
a tremendous amount of rainfall, that rain has to exit the 
coast. And if there's onshore sustained winds from a storm 
surge, the water just piles up. So we're in the process of 
coupling our storm surge models with the National Water Model. 
That's something that we're going to be working on with the 
USGS (U.S. Geological Survey) and the stream gauge data that 
they provide. And while it won't be operational this year, I 
think that that's really going to show some improvements in the 
future.
    Chairwoman Fletcher. Thank you, Dr. Jacobs. And I see that 
my time has expired, so I'll now recognize Ranking Member 
Marshall for 5 minutes.
    Mr. Marshall. Thank you, Chairwoman, again.
    Dr. Jacobs, we have a saying back home in Kansas that if 
you don't like the weather, just wait an hour. And then my 
question is how does your new Earth Prediction Innovation 
Center, going to help my constituents, my farmers more 
particularly?
    And just to give you one example, people think of 
agriculture and weather as all that matters is if it's raining 
or not, but take something as simple as alfalfa. You cut the 
alfalfa, there's probably about an hour or two each day that 
the humidity is maximum for locking in all the protein in those 
leaves. If you wait too long, it dries out. If you wait too 
long beyond that, it's going to--that afternoon thunderstorm is 
going to pop up. And if you do it too soon, there's too much 
moisture in it. So how are you--how is this EPIC going to 
impact my farmers?
    Dr. Jacobs. So on--well, there's a couple different ways, 
so starting from the longer range and coming back into the 
shorter range, we are actually looking at seasonal to sub-
seasonal forecasting with the dynamic climate models, as well 
as some statistical models. I think for long-range decisions in 
agriculture, that's going to be very helpful.
    On the shorter range with the convective-allowing models, 
we're going to be looking at doing probabilistic forecasting. 
Right now, the capability to predict a tornado is not within 
the science, but we can predict the probability of a tornado. 
And so we have a couple of things we're working on here. One of 
them is what we call warn-on forecast where instead of actually 
waiting to see when the tornado appears on radar, we actually 
have the capability in the forecasting to simulate rotation in 
the thunderstorms and issue warnings before the tornadoes 
appear on the radar. That can extend the lead time slightly.
    The other thing is social sciences. So one of the things 
that we learned in some of the social science research was that 
humans aren't necessarily rational, and we have to think really 
smart about how we message the warning. If--you know, if we 
give someone enough lead time to make a decision but on the 
other hand if we give them a lot of lead time, they might not 
make the same decisions. So the last step of this is actually 
interfacing with the emergency management community and also 
looking at the social science aspect of it.
    Your statement about the moisture in the crops is 
interesting and also actually ties into the land surface 
modeling. So one of the things we've noticed with the land 
surface modeling is that the transpiration in plants over 
fields versus plowed fields can actually induce convective 
activity, so this is something that we're looking at, but it's 
at a very high resolution. And some of the satellite data we 
collect is critical to this.
    Mr. Marshall. OK. Maybe we'll move on here. I'm sure we 
continue to have that discussion. There's more to talk about. 
But next, as I understand, NOAA is fast approaching the end of 
its current contract for its Weather and Climate Operational 
Supercomputing System, WCOSS--I'm sure you've got a 
pronunciation for that--a priority of this Administration, and 
we'll need to enter into a new contract. Can you explain the 
importance of this system for NOAA's mission, and are there any 
limitations in how NOAA must enter new contracts such as the 
ability to enter multi-year contracts to reduce costs?
    Dr. Jacobs. So WCOSS is critical to our mission. This is 
our high-performance computing (HPC) where we run all of our 
operational models. The procurement process is a little bit 
tricky. Typically, we will go through a third-party vendor to 
do the procurement, but when they do the procurement, they 
actually acquire the hardware from the actual vendors. And so 
what happens is when they--when this procurement agent goes to 
acquire the hardware from the vendors, they don't want to get 
stuck holding the bill, so they will actually ask us to put 
what's called a cancellation liability fee, essentially money 
in escrow to protect them in the very rare chance we might back 
out of the contract.
    What happens is we have to essentially park $50 million in 
escrow to protect them from us backing out. That $50 million is 
$50 million less of HPC that we actually can use for computing 
resources. And if we're on a 3-year rolling renewal of the 
lease cycle, we'll almost have to have this money parked 
indefinitely to protect us from that.
    Mr. Marshall. OK. Thank you so much. I'll yield back the 
remainder of my time.
    Chairwoman Fletcher. Thank you very much.
    I will now recognize Chairwoman Johnson for 5 minutes.
    Chairwoman Johnson. Thank you very much.
    Dr. Jacobs, you might know that I chaired a hearing on 
NASA's Fiscal Year 2020 Budget Request earlier this month, and 
one of the Members asked about FCC's (Federal Communications 
Commission's) 5G spectrum auction at the 24 gigahertz band. 
Administrator Bridenstine was very clear in saying that 
potential bleed over into weather data channels could take us 
back to the 1970s in terms of weather forecast. He mentioned a 
study that NASA did in conjunction with NOAA that determined 
that it's a very high probability that we are going to lose a 
lot of data.
    Do you have any reaction to Mr. Bridenstine's response, and 
what is NOAA's current state of play on the issue, and what are 
we doing to mitigate any potential interference?
    Dr. Jacobs. So the potential interference in the 24 
gigahertz spectrum is essentially out-of-bounds emission from 
the adjacent spectrum. Now, we do passive water vapor sensing 
from our polar orbiting satellites, and if the out-of-bounds 
emissions thresholds are too large, essentially these 
instruments will just blind our satellites and we won't be able 
to detect water vapor.
    We are currently--so our subject matter experts are looking 
at the proposed minus 20 decibel watts of out-of-bound emission 
proposed by the FCC. Our subject matter experts, along with 
NASA subject matter experts and subject matter experts from the 
FCC are collectively collaborating on a study. They're actively 
doing that right now. The results of that study will be decided 
upon on May 15, whereby we will ultimately make a decision on 
what the acceptable out-of-bounds emissions is to protect 
future spectrum. Right now, the number is in flux because 
there's a lot of assumptions that go into the study, but we 
should have a definitive answer in the next couple weeks.
    Chairwoman Johnson. If this budget is enacted, would NOAA 
continue to participate in the NCA (National Climate 
Assessment) process in the absence of the dedicated funding?
    Dr. Jacobs. Absolutely. So we--this won't limit our 
participation in NCA 5 at all. There's several other agencies. 
I would like to note that the NCA budget for NCA 1, 2, and 3 
was originally produced without a budget line, so I don't see 
this impacting our ability to provide expertise and data for 
NCA 5 at all.
    Chairwoman Johnson. OK. With the proposed budget, what do 
you predict would be the impacts that you would have to face?
    Dr. Jacobs. Well, a lot of the cuts were made to external 
research grants in favor of maintaining core capabilities so 
that we wouldn't degrade our ability to deliver on our mission. 
So external research, as it pertains to universities and such, 
would likely take the largest hit. Maintaining our core 
capabilities is obviously a top priority, and the core 
capabilities within this budget will be maintained.
    Chairwoman Johnson. Now, this budget proposes to 
aggressively cut grants as it relates to students and graduate 
students for--which really helps to create your manpower. How 
do you plan to address that?
    Dr. Jacobs. Well, there's a lot of opportunities through 
external partnerships, through public-private partnerships, as 
well as the public-private partnerships collaborating with 
industry, and then using a lot of industry funding to drive 
academic research. So that's the crux of EPIC, the Earth 
Prediction Innovation Center, and also the backbone of NOPP, 
the National Oceanographic Partnership Program.
    Chairwoman Johnson. You have knowledge of this industry 
spending coming about?
    Dr. Jacobs. I do. So when I was at Panasonic, I actually 
did a lot of collaborative model development with the Weather 
Service. We also, through industry, funded five different 
universities, including PIs (principal investigators) and 
postdocs to do research. Granted, we had a financial interest 
as a private company, but the ultimate benefiter was the 
Weather Service in helping improve some of their forecast 
models, as well as different PIs at universities and their 
students who wanted to get research publications out.
    Chairwoman Johnson. Thank you. My time is expired.
    Chairwoman Fletcher. Thank you, Chairwoman Johnson.
    I'll now recognize Ranking Member Lucas for 5 minutes.
    Mr. Lucas. Thank you, Chairwoman.
    Dr. Jacobs, the Weather Research and Forecasting Innovation 
Act of 2017, which I sponsored along with many of my colleagues 
here today, prioritized commercial weather data to improve our 
forecast skills. I understand NOAA is continuing the Commercial 
Weather Data Pilot program. Could you discuss with us for a bit 
what is the status of the program, and does NOAA plan to buy 
this data after it's tested?
    Dr. Jacobs. Yes. So thank you very much for the Weather 
Research and Forecasting Innovation Act, as well as the NIDIS 
Reauthorization.
    The Commercial--the Weather Data Pilot program, what we've 
learned through testing is that the GPS-RO (radio occultation) 
data that we were collecting adds value. We haven't quantified 
exactly how much, but we know that it adds enough value to make 
sense to enter into a contract to acquire the data, so we'll be 
transitioning that from a pilot program to an actual data 
acquisition program. The pilot program will still exist, and 
we're using that to explore space-based data sets beyond GPS-
RO, for example, possibly hyperspectral sound or instruments 
like that.
    Mr. Lucas. Doctor, during my tour of the University of 
Oklahoma and Oklahoma State, I heard from several of my 
constituents that we are potentially on the cusp of a 
breakthrough in our ability to forecast short and long-term 
weather. And I know this is a topic that my colleagues have 
discussed also, but do you agree with this sentiment, and what 
steps can this Committee take to help assist NOAA and the 
private partners in this endeavor?
    Dr. Jacobs. We are very close to making some major leaps 
forward. The primary difference between us and the European 
Center, which is the modeling agency that we're always compared 
to, is the data assimilation of the model. So while I just 
spoke earlier on the upgrade to the dynamic core, we haven't 
upgraded the data assimilation system yet. We're expecting 
that. It's probably 1-1/2 to 2 years away, but we have to 
upgrade a lot of the infrastructure and architecture around the 
software, including the dynamic core, before we upgrade the 
data assimilation system. That's where I think you're going to 
see the biggest leap forward and improvement in forecast skill, 
in addition to that, transitioning all of the code to cloud-
based architecture.
    One of the biggest hurdles in harnessing external 
collaborator development is they don't have login credentials 
to our machines because of various security requirements, so 
that--the best way to solve the problem was to move the model 
code to a compute architecture that they had access to external 
to NOAA. And I think once that transition is finished, you'll 
see development rapidly occur.
    Mr. Lucas. Thank you, Doctor. One last question, thinking 
about the Chairwoman's questions about the spectrum and 
frequency, this Committee has a long history of supporting 
investments in NOAA's satellite systems. If the FCC is going to 
auction off parts of the spectrum that affect the utility of 
the systems, is it worth continuing to fund these billion-
dollar satellites, Doctor?
    Dr. Jacobs. Well, we'll--ultimately, we'll have to wait 
until the final number is decided on the out-of-bounds 
emissions limits, and then we can actually use that number to 
determine how much of the data will be impacted. And once we 
determine how much data is impacted, then we can do an actual 
assessment on whether or not we can meet the mission 
requirements. If it's impacted such that we can't meet the 
mission requirements, then it would be prudent to rethink the 
investments in future polar orbiting satellites.
    Mr. Lucas. And that would be a shame if we lost all those 
billions of dollars in investment and that I would hope the 
other areas of the Federal Government are paying as close 
attention to this issue as you are, Doctor. Thank you very 
much.
    I yield back the balance of my time, Chairwoman.
    Chairwoman Fletcher. Thank you very much, Mr. Lucas.
    I will now recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Chairwoman Fletcher, and thank you, 
Dr. Jacobs, for joining us today.
    As the global climate crisis continues to press devastation 
beyond our shores and into our communities, countless 
businesses, local news stations, and millions of Americans 
depend upon scientific forecasting from 4,200 National Weather 
Service employees to stay safe. With that in mind, I have some 
major concerns about National Weather Service understaffing.
    In its Fiscal Year 2019 budget proposal, the agency sought 
to eliminate 355 positions in the NWS, including 248 frontline 
forecasters, 20 percent of all forecasters, in the NWS's 122 
forecast offices nationwide. Congress soundly rejected these 
proposed reductions, and the House Appropriations Committees 
directed the National Weather Service to continue to hire in 
2019 and to have additional FTEs (full-time employees) on board 
by the end of the fiscal year.
    However, according to reports the agency has provided to 
the National Weather Service employees union, the number of 
FTEs at the NWS is essentially unchanged from the beginning of 
the fiscal year. There were, in fact, fewer nonsupervisory, 
nonmanagerial employees at the NWS at the close of pay period 5 
in 2019--March 16, 2019, to be specific--than there were when 
the fiscal year began. NOAA has once again proposed to 
eliminate some 355 positions in the NWS in its Fiscal Year 2020 
budget request.
    So my question is, is the NWS intentionally failing to fill 
vacancies at the NWS in anticipation that Congress will 
eventually approve this request?
    Dr. Jacobs. So the--during the shutdown--so typically 
this--this shutdown occurred during the end of the year, across 
the end of the year, so a lot of times when individuals retire, 
we will see that happen at the end of December. So prior to the 
shutdown and resuming after the shutdown, this was the first 
time since 2011 that the hiring has actually outpaced 
attrition. We haven't fully gotten back to the number that we 
recovered from what we saw during the shutdown, but during 
FY2019, the onboard rate right now is roughly 91.5 percent.
    Mr. Tonko. Well, will you be committing to doing the 
remaining percent?
    Dr. Jacobs. Yes, we are committed to trying to close that 
gap, but we're also battling attrition and retirement at the 
same time.
    Mr. Tonko. Right, which is nothing new----
    Dr. Jacobs. No, that's expected.
    Mr. Tonko. OK. Last year, the agency informed the 
Appropriations Committee that there were 381 funded vacant 
positions at the NWS. What other items have to be done or what 
other forces have to be engaged to experience progress in 
filling these vacancies? I mean, you described some, but what 
else are you going to do for that percentage that are yet 
unfilled?
    Dr. Jacobs. So if--when you see the cuts in there, that 
actually is largely offset by some money that we're going to 
save by reducing the need to move individuals around, so we 
just recently implemented what's called GS 5 through 12, which 
is a career progression, to go from the GS all--for GS 5 all 
the way to 12.
    Typically, historically, a lot of times what would happen 
is a Weather Service forecaster, in order to receive a 
promotion, would have to move from one forecast office to 
another forecast office. And then many times we would actually 
have to pay the--pay for that move, in some cases buy their 
house. It ended up costing us around $12-$15 million a year. 
With the new GS 5 through 12 career progression, we actually 
will save money.
    Mr. Tonko. Has this all been done in consultation with the 
employees?
    Dr. Jacobs. Yes, this went through the employees union.
    Mr. Tonko. And what effect has the recent shutdown--you 
mentioned that the shutdown was part of the delay, but what--
can you describe with more detail what the recent shutdown had 
as an impact on hiring at the National Weather Service?
    Dr. Jacobs. Well, the--you know, like I was speaking to 
earlier, typically, individuals will work through the end of 
the calendar year, so we see the most retirement right at the 
end of the year, and so that happened to coincide with the 
shutdown. So while they were retiring, there was, you know, 
simultaneously a delay in onboarding people. There was not just 
a delay in the direct hiring but a delay in the onboarding 
process. So the people who were actually already hired but not 
fully onboarded, that process was also delayed, and we're still 
digging out of that right now.
    Mr. Tonko. So what happens if we have a future shutdown, 
and what impact can we anticipate or have we learned from that 
shutdown?
    Dr. Jacobs. Well, it really depends on when it is during 
the calendar year. If it happens during the--in the end of the 
calendar year across a transition, then we'll likely see a 
fairly large number of retirements that we will, you know, be 
delayed in onboarding new individuals and, you know, once the 
lapse in appropriation is over.
    Mr. Tonko. Madam Chair, I have exhausted my time, so I 
yield back.
    Chairwoman Fletcher. Thank you very much.
    I'll now recognize Mr. Babin for 5 minutes.
    Mr. Babin. Thank you, Madam Chair, I appreciate it.
    And, Dr. Jacobs, I appreciate you being here today as well.
    Can you please talk a little bit about NOAA's relationship 
with NASA (National Aeronautics and Space Administration)? Are 
there opportunities to be more involved in utilizing one 
another's capabilities in the area of weather forecasting and 
predictions, and what could these relationships look like down 
the road?
    Dr. Jacobs. So NASA, we have a fantastic relationship with 
NASA. The two agencies are very collaborative and work on a lot 
of different fronts. I think most people would think of the 
NOAA-NASA collaboration when it comes to our satellite 
programs, whether it's----
    Mr. Babin. Right.
    Dr. Jacobs [continuing]. The geo hosted or the joint 
venture for polar orbiting. We've got some new things that 
we're working on on that front in addition to the commercial 
data buys.
    But on the modeling side, there's a lot of collaborative 
work that we can do at NASA on this. We are trying to go to a 
unified forecasting system, so not just NOAA-NASA but all the 
different government agencies are working off the same model 
architecture so that whenever an agency is doing development 
work, whether it's NOAA and NASA, DOD (Department of Defense), 
DOE (Department of Energy), it all gets bundled into the same 
framework.
    A lot of other interesting things we're working on with 
NASA are the data assimilation. We're looking at observation 
impacts through their forecast sensitivity to observation tool, 
which is extremely useful.
    There's also work we're doing with them, as well as DOE, on 
looking at GPUs (graphics processing units) instead of CPUs 
(central processing units) for different type of processor work 
as well, in addition to that, exploring cloud compute 
architecture.
    Mr. Babin. OK. Thank you very much. Also, I represent 
southeast Texas where the Chairman had mentioned that we got 
hit so hard, decimated by Hurricane Harvey almost 2 years ago. 
We're still in the midst of recovery from this storm. And 
there's been a couple of severe storms already this year, and 
it's incredibly important to accurately predict storms and 
their magnitudes. How accurate is the state of our severe 
weather forecasting? And do you think that we can do it better?
    Dr. Jacobs. I--we absolutely can do it better. There's 
always room for improvement. Right now, the model that we would 
typically use for the high-resolution convective forecasting 
only runs out a day. We rapid cycle that model so it refreshes 
every hour. There's a lot of work to be done on the physics in 
the model, as well as observing system capability. Once we 
eventually transition to a global model, a lot of our 
convective forecasts will be driven by data that we collect 
over the Pacific Ocean because the longer we predict out, the 
further west we have to do observations. So there's work to be 
done on the observing system side, as well as the modeling 
side, and parallel to that, utilizing HPC better because, as we 
go to higher resolutions, it requires more and more compute 
resources.
    Mr. Babin. OK. And then how do you plan to incorporate 
emerging commercial capabilities, especially in space weather 
area and in NOAA's long-range planning?
    Dr. Jacobs. So when it comes to commercial space-based 
observing systems, essentially what we would do is look at the 
impact of the data and the models very much like we did with 
the GPS RO data and determine how much value it adds to the 
forecasting skill. That's a little bit of work on our part, 
too, because we have to make sure that the model is accepting 
of the data and can extract value out of it. Assuming that the 
commercial market to produce space-based weather observations 
is seeing value in selling the data to us, it's in my mind a 
more viable path to acquire the data. We can do it for less 
money. And, as long as they meet the thresholds that we set for 
quality and reliability, I think it's a definite path forward.
    Mr. Babin. OK. And then, lastly, what suggestions do you 
have for us Members of Congress, to help you maximize the best 
resources provided to NOAA?
    Dr. Jacobs. Well, to maximize the best resources on the 
compute side, the cancellation liability fee is obviously a 
large concern because that's $50 million extra HPC that we 
could be using that we're just sticking the money in an 
account. Transitioning to cloud-based architecture is, I 
believe, the future because it solves a bottleneck of compute 
resources on the research side. And there will be some upfront 
work to transition that code over. And then continuing to 
support scientists both on the modeling side and the software 
engineering side, both internal and external to NOAA, that's 
where I think we'll see the biggest improvements in 
forecasting.
    Mr. Babin. OK. Thank you very much, Doctor, and I yield 
back. My time is expired.
    Chairwoman Fletcher. Thank you.
    I'll now recognize Dr. Baird for 5 minutes.
    Mr. Baird. Thank you, Madam Chair.
    And, Dr. Jacobs, we really appreciate you being here today.
    My district is home to Purdue University, which administers 
the Illinois-Indiana Sea Grant college program, and that's in 
partnership with the University of Illinois. And this Sea Grant 
is funded through NOAA, and that works on aquatic invasive 
species and their control, pollution prevention, and economic 
opportunity. It also monitors weather and lake conditions using 
two buoys, which I understand they have their own Twitter 
account. Is that correct? But anyway, out in Lake Michigan 
where real-time data about windspeed, lake temperatures, and 
wave height is collected and sent to NOAA.
    So my question, Dr. Jacobs, is, how does NOAA strike a 
budget balance between the internal research that stays with 
NOAA and the extramural research that goes out to NOAA's 
private and academic partners?
    Dr. Jacobs. So in the tough budget situation we're in, we 
really had to prioritize maintaining our core capabilities of 
protecting life and property. And while the Sea Grant program 
is a fantastic program, I'm a huge supporter of it--we have Sea 
Grants Knauss fellows on our staff--it was one of the things 
that we ended up having to cut just to maintain our core 
capabilities.
    Mr. Baird. Then my second question in that same area, 
historically, has more extramural research money been provided 
to universities by NOAA's research office or by their weather 
service?
    Dr. Jacobs. Typically, the money for the research side, as 
well as the cooperative institutes, runs through the research 
side, not the forecast side, so the Weather Service budget was 
relatively flat. It was the research side.
    Mr. Baird. Thank you. My next question then deals with the 
National Integrated Drought Information System, and I think 
that was reauthorized in December. So when Congressman Marshall 
made reference to the impact of EPIC on agriculture, because we 
have a lot of agriculture in my district--my question deals 
with how is this interagency partnership assisting farmers in 
the agricultural industry across the country?
    Dr. Jacobs. So EPIC, while originally designed to support 
NOAA's mission, will actually be the transition for model 
development produced by NASA, DOD, DOE, and other agencies. So 
there--there's going to be a lot of development work running 
through EPIC by other agencies that will ultimately help the 
medium- to long-range forecasts.
    So the dynamic model that we're looking at for global 
forecasting runs out 15 days. Then beyond that we have two 
methods for doing seasonal to sub-seasonal forecasting. One is 
a dynamic model and associated ensembles, as well as 
statistical models, which look at the dynamical model output 
and then derives statistical forecast running out 9 months. 
We're looking to extend those possibly beyond 18 months.
    Mr. Baird. Thank you. Could you elaborate, though, how the 
National Integrated Drought Information System----
    Dr. Jacobs. So the----
    Mr. Baird [continuing]. Relates?
    Dr. Jacobs. The NIDIS Reauthorization supports--in there 
was the authorization of EPIC but also supporting the seasonal 
to sub-seasonal forecasting as well, and that long-range 
forecasting is what the agricultural community is primarily 
interested in.
    Mr. Baird. Thank you, Dr. Jacobs, and I'll yield back my 
time.
    Chairwoman Fletcher. Thank you, Dr. Baird.
    Before we bring the hearing to a close, I want to thank Dr. 
Jacobs for testifying before the Committee today.
    The record will remain open for 2 weeks for additional 
statements from the Members for any additional questions the 
Committee may ask our witness.
    The witness is excused, and the hearing is now adjourned.
    [Whereupon, at 11:00 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
